TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Office of Appeals Continues to Improve
                 Compliance With Collection Due Process
                               Requirements



                                     September 17, 2009

                           Reference Number: 2009-10-126




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                         The Office of Appeals Continues to Improve
                     Compliance With Collection Due Process Requirements




Response
IRS management agreed to our recommendations. Appeals management will change the Internal
Revenue Manual to reflect updated requirements for the documentation to be retained in the
Appeals Collection Due Process and Equivalent Hearing files. The Internal Revenue Manual
will also reflect the requirements to use a check sheet reflecting the documents to be retained in
each Appeals file. In addition, Appeals management reviewed and corrected all 12 taxpayers’
accounts that were identified as improperly coded on the Integrated Data Retrieval System.
Management’s complete response to the draft report is included as Appendix VI.
Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
Inspector General for Audit (Management Services and Exempt Organizations), at
(202) 622-8500.




                                                                                                 3
                                 The Office of Appeals Continues to Improve
                             Compliance With Collection Due Process Requirements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Sufficient Documentation Was Not Available to Determine Whether
          the Office of Appeals Properly Addressed All Taxpayer Issues ..................Page 3
                    Recommendation 1:..........................................................Page 4

          Hearing Officers Did Not Always Document Their Impartiality .................Page 4
          Office of Appeals Cases Did Not Always Contain the Correct
          Computer Coding on Taxpayer Accounts.....................................................Page 5
                    Recommendation 2:..........................................................Page 7

          The Collection Statute Expiration Date Was Not Always Correct...............Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Collection Due Process Procedures.......................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
             The Office of Appeals Continues to Improve
         Compliance With Collection Due Process Requirements




                    Abbreviations

CDP           Collection Due Process
EH            Equivalent Hearing
IDRS          Integrated Data Retrieval System
IRS           Internal Revenue Service
U.S.C.        United States Code
                            The Office of Appeals Continues to Improve
                        Compliance With Collection Due Process Requirements




                                          Background

When initial contacts by the Internal Revenue Service (IRS) do not result in the successful
collection of unpaid tax, the IRS has the authority to attach a claim, a Notice of Federal Tax Lien
(lien), to a taxpayer’s assets. 1 The IRS also has the authority to seize or levy a taxpayer’s
property, such as wages or bank accounts, to satisfy a taxpayer’s debt. 2
In February 1996, the IRS established procedures that allowed taxpayers to appeal the filing of a
lien and proposed or actual levies. Congress enacted legislation to protect taxpayers’ rights in
the IRS Restructuring and Reform Act of 1998. 3 Taxpayers now have the right to a hearing with
the Office of Appeals (Appeals) under the Collection Due Process (CDP). 4 Appeals is
independent of other IRS offices, and its mission is to resolve tax controversies, without
litigation, on a basis which is fair and impartial to both the Federal Government and the taxpayer.
When a taxpayer timely requests an Appeals hearing regarding the filing of a lien or the issuance
of a notice of intent to levy, the taxpayer is granted a CDP hearing. However, if the taxpayer’s
request for a CDP hearing is not received within the allotted time, usually within 30 calendar
days, the taxpayer, at the discretion of Appeals, might be granted an Equivalent Hearing (EH).
In addition, the taxpayer must request an EH hearing within 1 year of the issuance of the
notices of intent to levy or to file a lien.
Taxpayers have the right to petition the United States Tax Court if they disagree with Appeals’
decision on a CDP hearing. When Appeals makes a final decision on a taxpayer’s case, the
hearing officer issues a Determination Letter on CDP cases or a Decision Letter on EH cases.
During Fiscal Year 2008, Appeals closed 27,024 CDP cases and 6,957 EH cases.
The Treasury Inspector General for Tax Administration is required to determine annually
whether the IRS complied with legal guidelines and procedures for the filing of a lien or a notice
of intent to levy and the right of the taxpayer to appeal. 5 This is our ninth annual audit of
taxpayer appeal rights.
Our previous audit report on the Appeals process was issued in September 2008, 6 and the related
corrective actions were planned for implementation by December 15, 2008, and May 15, 2009.

1
  26 United States Code (U.S.C.) Section (§) 6321 (Supp. III 2000).
2
  26 U.S.C. § 6331 (Supp. III 2000).
3
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
4
  Appendix V provides an explanation of the CDP and Equivalent Hearing procedures.
5
  26 U.S.C. §§ 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
6
  The Office of Appeals Continues to Show Improvement in Processing Collection Due Process Cases (Reference
Number 2008-10-160, dated September 12, 2008).
                                                                                                      Page 1
                         The Office of Appeals Continues to Improve
                     Compliance With Collection Due Process Requirements



The scope for this year’s audit covered CDP and EH cases closed between October 1, 2007, and
September 30, 2008, which was prior to the planned implementation dates for last year’s
corrective actions. Where applicable, we did not make recommendations in this report for
findings repeated from the previous audit if the recommendations and the suggested corrective
actions were still deemed sufficient in correcting future errors.

This review was performed by contacting Appeals personnel in Denver, Colorado, and
San Francisco, California, and the Office of Chief Counsel, in Washington, D.C., during the
period October 2008 through May 2009. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                             The Office of Appeals Continues to Improve
                         Compliance With Collection Due Process Requirements



The IDRS coding errors identified in this year’s report have also been identified in the prior
years’ reviews, with the exception of the EH cases miscoded as CDP cases. 14 In last year’s
review, IRS management agreed to take corrective actions, which included requiring Collection
function personnel to include a print screen of the case listing page from the tracking system to
confirm that the case is on the system when it is received in Appeals. In addition, technical
employees in Appeals will be required to review and compare the print screen information to the
Appeals Centralized Database System 15 case summary card for accuracy. Corrections will be
submitted immediately to Appeals Processing Services, and the settlement officer will monitor
that Appeals Processing Services makes the corrections in a timely manner prior to closing.
Because the sample cases in this audit were initiated prior to the IRS’ implementation date of
May 2009, we are making no further recommendations regarding the processes for IDRS coding.
We believe that the IRS’ corrective actions should provide reasonable assurance that taxpayer
accounts will have a higher likelihood of being coded correctly in the future. However, we are
making a recommendation to correct the coding errors on the 12 cases we identified in our
sample.

Recommendation
Recommendation 2: The Chief, Appeals, should correct the coding errors in all 12 taxpayer
accounts we identified in our sample to ensure that the proper codes are reflected on the IDRS.
        Management’s Response: Appeals management agreed with this recommendation
        and corrected all 12 taxpayer accounts that were improperly coded on the IDRS.

The Collection Statute Expiration Date Was Not Always Correct
The IRS generally has 10 years from the date of assessment to collect a liability owed by a
taxpayer. This is referred to as the Collection Statute Expiration Date. Because the IRS usually
stops collection activity during the Appeals process, the Collection Statute Expiration Date is
temporarily postponed or suspended during a CDP hearing. The IRS suspends the 10-year
statute of limitations from the date of the CDP hearing request until the date the Appeals
determination is made final or the date the taxpayer withdraws the request in writing.
The statute suspension is systematically controlled by the IDRS. One code is entered to start the
suspension and another is entered to stop the suspension and restart the statute period. Currently,
the code input to suspend the collection statute is usually entered by the Collection function;

14
   The Office of Appeals Continues to Show Improvement in Processing Collection Due Process Cases (Reference
Number 2008-10-160, dated September 12, 2008) and The Office of Appeals Has Improved Its Processing of
Collection Due Process Cases (Reference Number 2007-10-139, dated September 21, 2007).
15
   The Appeals Centralized Database System is a computerized case control system used to control and track cases
throughout the appeals process.
                                                                                                          Page 7
                             The Office of Appeals Continues to Improve
                         Compliance With Collection Due Process Requirements



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with the provisions of
26 United States Code (U.S.C.) Sections (§§) 6320 (b) and (c) and 6330 (b) and (c) when
taxpayers exercised their rights to appeal the filing of a Notice of Federal Tax Lien (lien) or the
issuance of a notice of intent to levy. 1 To accomplish this objective, we:
I.      Determined whether any new procedures or processes had been developed since
        completion of the prior Treasury Inspector General for Tax Administration statutory
        review. 2 This involved requesting documentation from Appeals personnel supporting the
        implementation of corrective actions to our prior audit reports and other procedural or
        process changes.
II.     Determined whether Appeals CDP and EH 3 office and administrative case files could be
        secured and contain minimum documentation for a hearing.
        A. Obtained from the Appeals Centralized Database System4 file maintained at the
           Treasury Inspector General for Tax Administration Data Center Warehouse 5 a
           computer extract of CDP and EH cases closed between October 1, 2007, and
           September 30, 2008. We validated the computer extract using information from the
           Data Center Warehouse, reviewed the appropriateness of data within fields requested,
           and compared population totals to information obtained from Appeals personnel.
        B. Selected samples of 70 CDP and 70 EH case files.
             1. Selected statistical attribute samples of 70 CDP cases (from a population of
                27,024 CDP cases) and 70 EH cases (from a population of 6,957 EH cases) based
                on a confidence level of 90 percent, a precision rate of ±6 percent, and an
                expected error rate of 10 percent. We selected a statistical sample because we
                wanted to project results to the entire universe.



1
  26 U.S.C. §§ 6320 and 6330 (Supp. III 2000).
2
  The Office of Appeals Continues to Show Improvement in Processing Collection Due Process Cases (Reference
Number 2008-10-160, dated September 12, 2008).
3
  A detailed explanation of the CDP and EH procedures is included in Appendix V.
4
  The Appeals Centralization Database System is a computerized case control system used to control and track cases
throughout the Appeals process.
5
  The Treasury Inspector General for Tax Administration Data Center Warehouse stores taxpayer data and allows
auditors to query and download data needed for audit work.
                                                                                                          Page 9
                        The Office of Appeals Continues to Improve
                    Compliance With Collection Due Process Requirements



          2. Requested and determined whether Appeals could provide the sampled office files
             and whether we could secure the sampled administrative files.
          3. For each sample case file received, determined whether the file contained the
             minimum documentation required to support a CDP hearing or an EH, which
             included the Notice of Intent to Levy (Letter 1058/LT11) and/or Notice of Federal
             Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172);
             Request for a Collection Due Process Hearing or Equivalent Hearing
             (Form 12153) or similar taxpayer request; Appeals Centralized Database System
             Case Summary Card and Activity Record; Appeals Transmittal and Case Memo
             (Form 5402); Notice of Determination Concerning Collection Action(s) Under
             Section 6320 and/or 6330 (Letter 3193/3194); Summary Notice of Determination,
             Waiver of Right to Judicial Review of a Collection Due Process Determination,
             and Waiver of Suspension of Levy Action (Form 12257); Decision Letter
             Concerning Equivalent Hearing Under Section 6320 and/or 6330 of the Internal
             Revenue Code (Letter 3210); transcript of the taxpayer’s account; and Collection
             case history. We discussed exceptions with Appeals personnel.
III.   Determined whether CDP and EH cases were misclassified (should have been an EH or a
       CDP case, respectively).
       A. Using the samples selected in Step II.B.1., reviewed the Appeals Centralized
          Database System, case file, and tax account transcript information to determine
          whether the taxpayers’ hearing requests were received timely or late and were
          properly classified.
       B. Discussed exceptions with Appeals personnel.
IV.    Determined whether Appeals was in compliance with 26 U.S.C. §§ 6320 and 6330 when
       handling CDP and EH requests.
       A. Using the samples selected in Step II.B.1., determined whether the following items
          were addressed by the hearing officer.
          1. The taxpayer was provided only one hearing for the tax period related to the
             unpaid tax specified in the lien/levy notice. [26 U.S.C. §§ 6320(b) (2) and
             6330(b) (2)]
          2. The taxpayer was provided with an impartial hearing officer or waived this
             requirement. [26 U.S.C. §§ 6320(b) (3) and 6330(b) (3)]
          3. The hearing officer obtained verification that the requirements of any applicable
             law or administrative procedure were met. [26 U.S.C. § 6330(c) (1)]
          4. The taxpayer was allowed to raise issues at the hearing relating to the unpaid tax,
             the filing of the lien, or the proposed levy action. This could include appropriate
                                                                                         Page 10
                             The Office of Appeals Continues to Improve
                         Compliance With Collection Due Process Requirements



                 spousal defenses, challenges to the appropriateness of collection activities, offers
                 of collection alternatives, or questions about the underlying liability. [26 U.S.C.
                 § 6330(c) (2)]
             5. The hearing officer made a determination after considering whether any proposed
                collection action balances efficient tax collection with the taxpayer’s legitimate
                concern that any collection action be no more intrusive than necessary.
                [26 U.S.C. § 6330(c) (3)]
        B. Discussed exception cases with Appeals personnel to confirm and determine causes.
           After confirmation, we estimated the number of potential exceptions within the
           population.
V.      Determined whether CDP and EH accounts are being properly coded on the IDRS. 6
        A. Using the samples selected in Step II.B.1., determined whether the correct coding was
           input to taxpayers’ accounts.
        B. Discussed exception cases with Appeals personnel to confirm and determine causes.
           After confirmation, we estimated the number of potential exceptions within the
           population.




6
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 11
                       The Office of Appeals Continues to Improve
                   Compliance With Collection Due Process Requirements



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Diana Tengesdal, Acting Director
Joseph Cooney, Audit Manager
Chinita Coates, Lead Auditor
Robert Beel, Senior Auditor
Terrey Haley, Senior Auditor
Yasmin Ryan, Senior Auditor
Joseph Smith, Senior Auditor
Jennifer Clewis, Auditor
Angela Garner, Auditor
Rashme Sawhney, Auditor




                                                                                  Page 12
                       The Office of Appeals Continues to Improve
                   Compliance With Collection Due Process Requirements



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:A
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Director, Office of Legislative Affairs CL:LA
Audit Liaison: Chief, Appeals AP




                                                                       Page 13
                          The Office of Appeals Continues to Improve
                      Compliance With Collection Due Process Requirements



                                                                                   Appendix V

                 Collection Due Process Procedures

The IRS is required to notify taxpayers in writing that a lien has been filed or when it intends to
levy. A taxpayer is allowed to appeal the filing of the lien or proposed levy action through the
CDP by filing a hearing request. This hearing request must be received within 30 calendar days
plus 5 business days of the filing of the lien or within 30 calendar days of the date of the notice
of intent to levy. If a taxpayer’s hearing request is submitted on time, the IRS will suspend all
collection efforts and the Office of Appeals (Appeals) will provide the taxpayer a CDP hearing.
If the taxpayer disagrees with the Appeals decision, he or she may petition the courts. If a
taxpayer’s hearing request is not submitted timely, Appeals has discretionary authority to
provide the taxpayer an EH and consider the same issues as in a CDP hearing; however, the IRS
is not required to suspend collection action and the taxpayer does not have the right to a judicial
review.
Taxpayers are entitled to one hearing per tax period for which a lien or notice of intent to levy
has been issued. The hearing is conducted by an Appeals officer or Settlement officer (hearing
officer) who has had no prior involvement with the unpaid tax. During the hearing, the hearing
officer must verify whether the requirements of all applicable laws or administrative procedures
related to the lien or notice of intent to levy were met. The hearing officer must also address any
issues the taxpayer may raise relevant to the unpaid tax, the filing of the lien, or the proposed
levy, such as whether the taxpayer is an innocent spouse; determine if collection actions were
appropriate; and decide if other collection alternatives would facilitate the payment of the tax.
The hearing officer must determine whether any proposed collection action balances the need for
efficient collection of taxes with the taxpayer’s legitimate concerns. The taxpayer may not raise
an issue that was considered at a prior administrative or judicial hearing if the taxpayer
participated meaningfully in the prior proceeding.
At the conclusion of a hearing, Appeals provides the taxpayer a letter with the hearing officer’s
findings, agreements reached with the taxpayer, any relief provided to the taxpayer, and any
actions the taxpayer and/or the IRS are required to take. For a CDP case, the taxpayer receives
either a Determination Letter, which provides an explanation of the right to a judicial review, or
a Summary Notice of Determination, which is used when the taxpayer agrees with Appeals,
waives the right to a judicial review, and waives the suspension of collection action. For an
EH case, the taxpayer receives a Decision Letter.
The CDP or EH case is reviewed by the hearing officer’s manager at the completion of the case
to evaluate whether the hearing officer followed all requirements and procedures.


                                                                                            Page 16
                         The Office of Appeals Continues to Improve
                     Compliance With Collection Due Process Requirements



After Appeals has made a determination on a case, if the taxpayer has a change in circumstances
that affects the Appeals determination or if the Collection function does not carry out the
determination, the taxpayer has the right to return to Appeals. The Appeals office that made the
original determination generally retains jurisdiction over the case.




                                                                                         Page 17
          The Office of Appeals Continues to Improve
      Compliance With Collection Due Process Requirements



                                                 Appendix VI

Management’s Response to the Draft Report




                                                        Page 18
    The Office of Appeals Continues to Improve
Compliance With Collection Due Process Requirements




                                                  Page 19
